Case 20-2318, Document 34, 12/30/2020, 3003752, Pagel of 1

N.D.N.Y.
18-cv-428
Singleton, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 30th day of December, two thousand twenty.
Present:
Debra Ann Livingston,
ChiefJudge,
Peter W. Hall,
Denny Chin,
Circuit Judges.
Michael Mosley,
Petitioner-Appellant,
v.

20-2318

John Rich, Superintendent, Elmira Correctional Facility,
Respondent-Appellee.

Appellant, pro se, moves for a certificate of appealability. Upon due consideration, it is hereby
ORDERED that the motion is DENIED and the appeal is DISMISSED because Appellant has not
“made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c); see also
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
V.

r*

Case 20-2318, Document 45, 02/23/2021, 3042557, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
23rd day of February, two thousand twenty-one.

Michael Mosley,
Petitioner - Appellant,
ORDER
v.

Docket No: 20-2318

John Rich, Superintendent, Elmira Correctional Facility,
Respondent - Appellee.

Appellant, Michael Mosley, filed a motion for panel reconsideration, or, in the alternative,
for reconsideration en banc. The panel that determined the appeal has considered the request for
reconsideration, and the active members of the Court have considered the request for
reconsideration en banc.
IT IS HEREBY ORDERED that the motion is denied.

FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

